OIG Investigative Reports, Covington Resident Pleads Guilty to Federal Misprision Charge.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
June 18, 2008
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Covington Resident Pleads Guilty to Federal Misprision Charge
BRENDA JEFFERSON, age 52, a/k/a Brenda Foster, a resident of Covington, Louisiana, pled guilty today before U.S. District Judge Eldon E. Fallon pled guilty a one count Bill of Information charging her with misprision of felony for her concealment and failure to report the conspiracy of her sister Betty Jefferson, brother Mose Jefferson and niece Angela Coleman to defraud federal and state agencies out of grant funds, announced U. S. Attorney Jim Letten.
According to the factual basis, the defendant performed clerical duties as instructed by Betty Jefferson, Mose Jefferson and Angela Coleman at various non-profit corporations which they controlled from approximately 1993 to shortly after Hurricane Katrina. While performing these duties, the defendant had knowledge of a conspiracy between Betty Jefferson, Angela Coleman and Mose Jefferson to obtain grant funds through fraudulent means, did not report it to the appropriate authorities and by her actions committed overt acts to conceal the fraud. Additionally, from approximately 1998 to present, the defendant admitted to having received a total of approximately $90,000 in payments from these non-profits.
JEFFERSON faces a maximum statutory penalty of three (3) years imprisonment, a fine of $250,000, a one year period of supervised release, and a mandatory special assessment of one hundred dollars.
This case was investigated by Special Agents of the Federal Bureau of Investigation along with agents from the U.S. Department of Education, Office of Inspector General and Internal Revenue Service, Criminal Investigative Division. This case was prosecuted by Assistant United States Attorneys Dorothy Manning Taylor and Daniel P. Friel.
(Download Factual Basis  (PDF)
Top
Printable view
Share this page
Last Modified: 06/20/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov